 OFFICE OF AUDIT
 REGION 2
 NEW YORK, NEW JERSEY




                 The City of Albany, Albany, NY

          Community Development Block Grant –
                Recovery Act Program
               This report was revised on February 5, 2013 to remove a
               contractor’s name and correct the circumstances regarding the
               termination on pages 6 and 28.




2013-NY-1001                                                               DECEMBER 6, 2012
                                                        Issue Date: December 6, 2012

                                                        Audit Report Number: 2013-NY-1001




TO:            William O’Connell, Director, Community Planning and Development, Buffalo,
                                            NY, 2CD



FROM:          Edgar Moore, Regional Inspector General for Audit, 2AGA


SUBJECT:       The City of Albany, NY, Did Not Always Administer Its CDBG Recovery Act
               Program Effectively and Efficiently


Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our audit of the City of Albany, NY’s Community
Development Block Grant (CDBG) Recovery Act program.

HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please
furnish us copies of any correspondence or directives issued because of the audit.

The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(212) 264-4174.




                                                1
                                         December 6, 2012
                                         The City of Albany, NY, Did Not Always Administer Its
                                         CDBG Recovery Act Program Effectively and Efficiently




Highlights
Audit Report 2013-NY-1001


 What We Audited and Why                   What We Found

We audited the City of Albany, NY’s      City officials did not always administer the CDBG-R
administration of its supplemental       program effectively, efficiently, and economically in
Community Development Block Grant        accordance with applicable rules and regulations,
program funded under the American        including the Recovery Act, and other HUD
Recovery and Reinvestment Act of         requirements. Specifically, contrary to program
2009 (CDBG-R). The objectives were       regulations, City officials did not ensure that contract
to determine whether the City            and procurement regulations were followed; activities
administered its CDBG-R program          met a national objective of the program; job creation
effectively, efficiently, and            was adequately tracked and documented; “buy
economically in accordance with          American” provisions of the Recovery Act were
applicable rules and regulations,        adequately monitored; and costs were necessary,
including the Recovery Act, and other    reasonable, and adequately supported. In addition,
U.S. Department of Housing and Urban     officials made a double payment for electrical work
Development (HUD) requirements.          related to a rehabilitation activity and made a payment
                                         for a former City employee’s unused vacation time,
                                         which was accrued before the award of the CDBG-R
  What We Recommend
                                         grant. These deficiencies occurred because City
                                         officials had not established and implemented adequate
We recommend that the Director of        controls. This was because of staff reductions and the
HUD’s Buffalo Office of Community        reliance on subrecipients to carry out most of the
Planning and Development instruct City administration of the activities. Also, there was a lack
officials to (1) repay from non-Federal of adequate emphasis of program requirements by
funds the ineligible costs of $5,291 and some City officials to ensure that monitoring of
(2) submit documentation to justify the CDBG-R activities and subrecipients was conducted
unsupported costs of $740,682 so that    effectively, costs incurred were eligible and adequately
HUD can make an eligibility              supported, duties were properly segregated, and assets
determination. HUD should require the were properly safeguarded. As a result, unsupported
City to repay any costs determined to be costs of $740,682 and ineligible costs of $5,291 were
ineligible from non-Federal funds and    expended for activities funded through the City’s
establish controls to ensure compliance CDBG-R program.
with program requirements.




                                               2
                          TABLE OF CONTENTS

Background and Objectives                                            4

Results of Audit
      Finding: Administration of the CDBG-R Program Was Not Always
                  Effective or Efficient                             5

Scope and Methodology                                                17

Internal Controls                                                    19

Appendixes
A.    Schedule of Questioned Costs                                   21
B.    Auditee Comments and OIG’s Evaluation                          22




                                         3
                      BACKGROUND AND OBJECTIVES

The American Recovery and Reinvestment Act of 2009 became Public Law 111-5 on February
17, 2009. The purpose of the Recovery Act is to (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession; (3) provide investments
needed to increase economic efficiency by spurring technological advances in science and
health; (4) invest in transportation, environmental protection, and other infrastructure that will
provide long-term economic benefits; and (5) stabilize State and local government budgets to
minimize and avoid reductions in essential services and counterproductive State and local tax
increases.

The City of Albany was awarded a Community Development Block Grant Recovery Act
(CDBG-R) grant of $996,140 on August 14, 2009. The audit reviewed five of the six CDBG-R
activities established by the City. As of July 10, 2012, expenditures for the five activities
reviewed totaled $788,612, or about 79 percent of the total grant.

The City operates under a mayor-council form of government, and its CDBG-R activities are
administered both in-house, through the City’s component unit, the Albany Community
Development Agency, and by subrecipient organizations. The City is responsible for overseeing,
monitoring, and managing CDBG-R activities. The files and records related to the City’s
CDBG-R program are maintained at the Agency’s offices located at 200 Henry Johnson
Boulevard, Albany, NY.

The objectives of the audit were to determine whether the City administered its CDBG-R
program effectively, efficiently, and economically in accordance with applicable rules and
regulations, including the Recovery Act, and other U.S. Department of Housing and Urban
Development (HUD) requirements.




                                                 4
                                 RESULTS OF AUDIT


Finding:       Administration of the CDBG-R Program Was Not Always
               Effective or Efficient
City officials did not always administer the CDBG-R program effectively, efficiently, and
economically in accordance with applicable rules and regulations, including the Recovery Act,
and other HUD requirements. Specifically, contrary to program regulations, City officials did
not ensure that contract and procurement regulations were followed; activities met a national
objective of the program; job creation was adequately tracked and documented; “buy American”
provisions of the Recovery Act were adequately monitored; and costs were necessary,
reasonable, and adequately supported. In addition, officials made a double payment for electrical
work related to a rehabilitation activity and made a payment for a former City employee’s
unused vacation time, which was accrued before the award of the CDBG-R grant. These
deficiencies occurred because City officials had not established and implemented adequate
controls. This was because of staff reductions and the reliance on subrecipients to carry out most
of the administration of the activities. Also, there was a lack of adequate emphasis of program
requirements by some City officials to ensure that monitoring of CDBG-R activities and
subrecipients was conducted effectively, costs incurred were eligible and adequately supported,
duties were properly segregated, and assets were properly safeguarded. As a result, unsupported
costs of $740,682 and ineligible costs of $5,291 were expended for activities funded through the
City’s CDBG-R program.


 Noncompliance With Contract
 and Procurement Requirements

               City officials did not always ensure that contract requirements and procurement
               regulations were followed, as there was a lack of independent cost and price
               analyses, work was not completed within the contract scope, and there was a lack
               of documentation showing that there was full and open competition. As a result,
               $523,657was considered unsupported pending an eligibility determination by
               HUD, and another $3,554 double payment was considered an ineligible
               expenditure.

               Regulations at 24 CFR (Code of Federal Regulations) 85.36(b)(9) provide that
               grantees and subgrantees must maintain records sufficient to detail the significant
               history of a procurement. These records must include but are not necessarily
               limited to the following: rationale for the method of procurement, selection of
               contract type, contractor selection or rejection, and the basis for the contract price.
               Further, 24 CFR 85.36(c)(1) provides that all procurement transactions must be
               conducted in a manner providing full and open competition.



                                                  5
Regulations at 24 CFR 85.36(f)(1) require that grantees and subgrantees perform
a cost or price analysis in connection with every procurement action, including
contract modifications. The method and degree of analysis is dependent on the
facts surrounding the particular procurement situation, but as a starting point,
grantees must make independent estimates before receiving bids or proposals.

In addition, 2 CFR Part 225, appendix A, C.1, requires that costs be necessary and
reasonable for proper and efficient performance and administration of Federal
awards.

The procurement deficiencies for each activity are described below.

Activity 3557 – Kings Way Building Rehabilitation Activity

The Albany Community Development Agency funded the Kings Way activity
through its subrecipient, the Albany Housing Authority, by expending $300,921
in CDBG-R funds for the rehabilitation of the historic building located at 27-29
North Swan Street, Albany, NY. The activity was originated to rehabilitate the
building, which upon completion, would provide two affordable housing units and
commercial space to be occupied by the Albany County Historical Association.
The national objective identified for this activity was low- to moderate-income
housing as defined at 24 CFR 570.208(3).

The issues of concern were the reasonableness of additional costs and the lack of
evidence that the required independent cost and price analyses were conducted.

The primary construction contractor was awarded an initial contract for $198,720.
As a result of two change orders, the contact amount was increased to $277,884.
The contractor was paid a total of $247,166 under this contract but the contract
was terminated by the Authority under the termination for the convenience power
held by the Authority under government contract law. Further, without obtaining
cost estimates for the additional work to be performed, the Authority hired
another contractor. The additional costs required to complete the work by another
contractor totaled $48,226, so the costs incurred totaled $295,392, or $17,508
more than the amended contract with the original contractor. Since the Authority
acknowledged that the additional work items were included in the scope of
services in the contract with the original contractor, the additional $17,508 in
costs incurred was questionable because all of the work should have been
accomplished under the initial contract with no increase in cost; therefore, these
costs were considered not necessary or reasonable.

The Authority also provided $5,529 in CDBG-R funds to another contractor
related to the construction of front stoops. There was no evidence in the
Authority or Agency files to indicate that quotes for the work were obtained as
required by the Agency’s procurement policies in place at the time of our review.
Thus, the total $300,921 expended for this activity was questioned for

                                 6
noncompliance with procurement and contract requirements and because the
overall activity was not completed and, therefore, did not meet a national
objective (see next text box).

Activity 3554 – 15-17 Clinton Street Demolition and Site Restoration

The Albany Community Development Agency budgeted $19,379 in CDBG-R
grant funds for a demolition and site restoration project at 15-17 Clinton Street.
As of July 10, 2012, CDBG-R funds of $16,950 had been expended on the
project, which was administered by the Union Baptist Church.

The Agency did not ensure that contract and procurement regulations were
followed while various activities were conducted. Specifically, church officials
obtained three bids for the primary demolition contract. The three bids were for
$7,600, $12,000, and $17,255. However, the work was awarded to the bidder
with a bid of $12,000. There was no documentation in the Agency’s file
indicating why the low bidder was not selected to do the work. The files also did
not contain documentation to indicate that the Agency had monitored the
procurement and provided justification for not selecting the low bidder. We
brought this matter to the attention of the Agency’s director, who contacted
church officials. The church officials informed her that when they were ready to
have the demolition work done, the low bidder was no longer available so they
went with the next lowest bid. The director further stated that the church would
provide additional documentation. However, at the time of our audit, no
additional documentation had been provided. The Agency should have been
aware of this issue through adequate monitoring, and its files should have been
appropriately documented. In addition, there was no information contained in the
files to indicate that a cost and price analysis had been conducted for the
demolition procurement action.

Additional costs of $4,950 were also incurred for this activity. Specifically,
$2,250 was drawn down for tree removal at 17 Clinton Street. A review of the
Agency’s program and fiscal files showed that only one proposal was documented
in support of the claim. Also, there was no documentation in the files to show
that an independent cost and price analysis was performed. In addition, the scope
of services outlined in the construction and demolition agreement did not provide
for the removal of trees from the property. Therefore, the costs were not
adequately supported, and the Agency did not demonstrate that the procurement
allowed for full and open competition.

Further, $2,700 was drawn down for removal of tree stumps and rocks at 15
Clinton Street. The Agency’s files documented only one proposal in support of
the claim. The files also did not document an invoice to support the voucher
claim form or that an independent cost and price analysis was performed. In
addition, the scope of services outlined in the construction and demolition
agreement did not provide for the removal of tree stumps and rocks from the

                                  7
property. Therefore, the costs were not adequately supported, and the Agency did
not demonstrate that the procurement allowed for full and open competition.

For the $16,950 in CDBG-R costs incurred for this activity, the Agency did not
ensure that applicable procurement regulations were followed, such as ensuring
full and open competition, and that all procurement actions included the required
cost and price analysis to ensure cost reasonableness. These deficiencies
indicated weaknesses in controls over contracting and procurement, monitoring of
subgrantees, and safeguarding of assets; therefore, the costs of $16,950 were
considered unsupported pending a HUD eligibility determination.

Activity 3556 – South End Phase II Rehabilitation, 34 Morton Avenue

The Albany Community Development Agency funded the 34 Morton Avenue
activity through its subrecipient, the Albany Housing Authority, by expending
$209,340 in CDBG-R funds for the rehabilitation of the first floor storefront,
stabilization of the building, and “mothballing” of two upper story apartments.
The activity began as part of the South End revitalization and initially included
Recovery Act funding of only $109,340. In June 2010, the City and the Authority
amended the agreement and increased the Recovery Act-funded budget to
$209,340.

According to Authority officials, Agency officials asked them to use a particular
minority-owned business, an architecture and engineering firm that was chosen by
the Agency. The project work and payments approval were to be overseen by the
Authority. The initial contractor was to complete the rehabilitation and run a job
training program through a local nonprofit at the activity site. However, both the
contractor and the architecture and engineering firm were selected without the
benefit of competitive bidding, violating the requirements of 24 CFR 85.36(f)(1).

Once the rehabilitation work began, the Authority immediately had problems with
the contractor. One issue was that not all of the employees under the workforce
program were paid by the contractor in a timely manner. Eventually, the
Authority had to replace the contractor with another contractor of its choice, again
without competitive bidding. The amount of $165,479 was paid to the new
contractor to finish the activity. In total, all of the $209,340 was expended on the
project.

Further, while the initial contractor received payment in 2010 from the Authority
for electrical work that was completed by a subcontractor, the contractor failed to
pay the subcontractor in full. As a result, the Authority had to disburse another
$3,554 for the 2010 electrical work at the end of 2011. This was an ineligible use
of Recovery Act funding since Recovery Act funds were used twice for the same
cost.




                                 8
In addition, an inspection of the property on May 30, 2012, indicated that some of
the work items claimed in the billings did not match the actual work. For
example, one change order contained the language “add 6 goose neck lights to
exterior of façade” for $2,300 and “add 2 decorative railing to stairs” for $ 1,495.
However, when we inspected the property, the façade contained only four goose
neck lights, and there was only one railing installed (see photos below).




This photo shows that only four goose neck lighting fixtures were installed.




This photo shows that only one decorative railing was installed.

As a result, we considered the $3,554 double payment to be ineligible, and the
remaining cost of $205,786 was considered unsupported pending a HUD
eligibility determination.




                                        9
National Objective Not
Accomplished

            Activity 3557 – Kings Way Building Rehabilitation Activity

            As mentioned earlier, this activity was originated to rehabilitate a building, which
            upon completion, would provide two affordable housing units and commercial
            space. However, this activity was not completed; although all the funds had been
            drawn down, and, therefore, did not meet the national objective of providing low-
            and moderate-income housing. Regulations at 24 CFR 570.200(a)(2) require that
            each recipient under the Entitlement or HUD-administered Small Cities programs
            and each recipient of insular area funds under Section 106 of the Recovery Act
            ensure and maintain evidence that each of its activities assisted with CDBG funds
            meets one of the three national objectives as contained in its certification.

            An inspection of the property on May 30, 2012, indicated that the rehabilitation
            work was not complete and no tenants or businesses occupied the building,
            although all of the CDBG-R funds allocated to this activity had been expended.
            The last drawdown of CDBG-R funds for this activity was dated January 26,
            2012, and funds were disbursed by the Albany Community Development Agency
            to the Albany Housing Authority for reimbursement of a partial payment to a
            subcontractor with an invoice, dated November 4, 2011. Therefore, although the
            final drawdown of CDBG funds was made to pay for work completed as of
            November 4, 2011, on May 30, 2012, more than 6 months later, the rehabilitation
            work had not been completed; thus, the national objective had not been achieved.

            The photos below, taken on May 30, 2012, show that the rehabilitation work was
            not complete.




            Photo of the front of the building, showing that the building was not occupied

                                                   10
           Interior photo of an upper level apartment unit for which the work was not complete




           Interior photo of a lower level apartment, which was not complete


Jobs Not Created

           Activity 3650 – Neighborhood Strategy Areas Activity

           The Albany Community Development Agency funded the Neighborhood Strategy
           Areas activity through its subrecipient, the City’s Department of General
           Services, by expending $217,025 in CDBG-R funds for resurfacing,
           reconstruction, replacement, and installation of various streets and sidewalks and

                                                 11
           the Americans with Disabilities Act ramps within the city. According to the
           Agency’s activity project description, this activity was to create 17.13 full-time-
           equivalent jobs; however, no evidence was provided indicating that these jobs
           were created.

           Activity 3556 – South End Phase II Rehabilitation, 34 Morton Avenue

           According to the Albany Community Development Agency’s activity project
           description, the national objective identified for this activity was that the project
           was to create nine jobs, eight of those for Albany residents. However, the Agency
           and the Albany Housing Authority failed to maintain evidence of the job creation
           as required. Regulations at 24 CFR 570.200(a)(2) require that each recipient
           under the Entitlement or HUD-administered Small Cities programs and each
           recipient of insular area funds under Section 106 of the Recovery Act ensure and
           maintain evidence that each of its activities assisted with CDBG funds meets one
           of the three national objectives as contained in its certification. However, without
           evidence of the job creation, the national objective for activity 3556 was not met.

           As described in HUD Notice of Program Requirements for Community
           Development Block Grant Program Funding Under the American Recovery and
           Reinvestment Act of 2009 [Docket No. FR-5309-N-01], Section 1512 of the
           Recovery Act requires that not later than 10 days after the end of each calendar
           quarter, each recipient that received Recovery Act funds from a Federal agency
           submit a report to that agency that contains (1) the total amount of Recovery Act
           funds received from that agency; (2) the amount of Recovery Act funds received
           that was expended on or obligated to projects or activities; and (3) a detailed list
           of all projects or activities for which Recovery Act funds were expended or
           obligated, including the name of the project or activity, a description of the
           project or activity, an evaluation of the completion status of the project or activity,
           and an estimate of the number of jobs created and retained by the project or
           activity. The Agency did not document an estimate of the number of jobs created
           and retained by the project or activity.

Buy American Provision of the
Recovery Act Not Followed

           Activity 3557 – Kings Way Building Rehabilitation Activity

           We conducted a subrecipient site visit review at the Albany Housing Authority
           from May 24 through May 31, 2012. During the review, we asked the
           Authority’s director of planning and development what controls the Authority had
           in place to ensure that the buy American provision of the CDBG-R regulations
           was followed. The director said he would check with other Authority staff and
           the architecture and engineering contractor overseeing the activity and provide us
           with the requested information. As of the completion of our site visit on May 31,
           2012, the director had not provided the requested information. Therefore, it

                                             12
            appeared that the Authority did not ensure that the buy American provision was
            adequately controlled; therefore, costs could have been incurred that violated this
            provision of the regulations. Regulations at 2 CFR 176.60 provide that Section
            1605 of the Recovery Act prohibits the use of Recovery Act funds for a project
            for the construction, alteration, maintenance, or repair of a public building or
            public work unless all of the iron, steel, and manufactured goods used in the
            project are produced in the United States.

Costs Not Adequately
Supported

            Activity 3650 – Neighborhood Strategy Areas Streets, Sidewalks, and Ramps
            Activity

            Regarding the Neighborhood Strategy Areas street, sidewalk, and ramp activity
            3650 described earlier, the Albany Community Development Agency and the
            City’s Department of General Services also charged costs to the CDBG-R
            program that were not adequately documented in the project files. Regulations at
            2 CFR Part 225, appendix A, C.1.j., require that costs be adequately documented.
            In addition, section III of the subrecipient agreement between the Agency and the
            Department of General Services provides that drawdown requests must be
            accompanied by acceptable supporting documentation that at a minimum includes
            an invoice itemizing amounts requested and supporting documentation for each
            item, such as materials list, payroll slips, etc. However, specific costs charged to
            the CDBG-R program were not detailed in the project files maintained by the
            Agency and the Department of General Services and were, therefore,
            unsupported.

            Contrary to the above requirements, the amounts budgeted to be charged to the
            CDBG-R program were claimed as a portion of a larger payment made to the
            contractor, while the detailed documented support for the payment listed many
            line item costs that could not be matched directly to the CDBG-R budgeted
            activities. As a result, the costs incurred for this activity totaling $217,025 were
            considered unsupported pending a HUD eligibility determination.

Costs Not Necessary or
Reasonable

            Activity 3558 – Albany Community Development Agency Rehabilitation
            Administration

            The Albany Community Development Agency budgeted $89,680 to be used for
            expenses associated with its administration of the CDBG-R grant. At the time of
            our review, May 17, 2012, the Agency had expended $47,145 for administrative
            expenses. While the Agency generally complied with program requirements

                                              13
           pertaining to its CDBG-R administration activity, deficiencies were identified that
           resulted in the incurrence of ineligible and unsupported costs, along with
           inadequate controls and segregation of duties issues.

           The CDBG-R grant agreement, approved on August 14, 2009, indicated that June
           4, 2009, was the first date on which the Recovery Act funds could be used. As of
           May 31, 2009, a former Agency employee had accumulated 521 hours of accrued
           unused vacation. While this employee’s time had been partially allocated to the
           CDBG-R administration activity, upon the employee’s retirement, the Agency
           made a one-time payment to the employee for the balance of unused vacation
           hours remaining. The payment for unused vacation time on May 7, 2010,
           amounted to $19,204, representing 489.5 hours of unused vacation time at an
           hourly rate of $39.23. The CDBG-R program was allocated and charged $1,033
           of the vacation time paid to the employee. Since all of the unused vacation time
           was accrued before the date on which CDBG-R funds could be used, the
           allocation of $1,033 to the CDBG-R grant was considered unnecessary and,
           therefore, ineligible. Regulations at 2 CFR Part 225, appendix A, C.1.a, require
           that costs be necessary and reasonable for proper and efficient performance and
           administration of Federal awards.

           On April 6, 2011, Agency officials purchased a computer for $704 to be used by
           the Agency’s compliance officer for various activities administered by the
           Agency. The computer was charged entirely to the CDBG-R program, although
           this program represents only a small portion of the activities and funds
           administered by the Agency. Regulations at 24 CFR 570.207(b)(1) provide that
           the purchase of equipment with CDBG funds is generally ineligible. Also, 24
           CFR 570.207(b)(1)(iii) states that the purchase of equipment, fixtures, motor
           vehicles, furnishings, or other personal property that is not an integral structural
           fixture is generally ineligible. Further, 2 CFR Part 225, appendix A, C.1.a,
           requires that costs be necessary and reasonable for proper and efficient
           performance and administration of Federal awards. In this instance, it was not
           reasonable that the entire cost of the computer was charged to the CDBG-R
           program. Therefore, the $704 was considered unreasonable and thus ineligible.

Inadequate Controls and
Segregation of Duties

           The City did not always establish and implement adequate controls over the
           monitoring of subrecipients and segregation of duties. In particular, officials did
           not ensure that the monitoring of CDBG-R subrecipients was conducted
           effectively. For instance, monitoring results were not documented, and
           monitoring of subrecipient contracting and procurement was generally not
           conducted. City officials relied on subrecipients to carry out many of the program
           activities and did not effectively establish and implement monitoring controls for
           the subrecipents to ensure that the activities were conducted in accordance with
           all applicable requirements. Other control weaknesses identified included a lack

                                            14
             of fidelity bond coverage, processing unnumbered purchase orders, and following
             inadequate and inconsistent procedures to document the receipt of goods and
             services.

             In addition, the safeguarding of assets was diminished due to the inadequate
             segregation of duties. For instance, one person (1) recorded deposited funds,
             made adjusting entries to the accounting records, and performed bank
             reconciliations; (2) processed disbursements, drew down funds, deposited funds,
             and made accounting entries related to accounts receivable; and (3) created and
             signed checks and reconciled the bank accounts. Generally accepted accounting
             principles require that there be segregation of the duties for custody,
             authorization, and recording. However, this did not appear to have been the case
             in these instances. This lack of segregation of duties for these functions may
             indicate that assets were not properly safeguarded.

             Regulations at 24 CFR 570.501 provide that an entity designated to undertake
             CDBG grant administration responsibilities is subject to the requirements
             applicable to subrecipients. These requirements include the regulations at 24 CFR
             85.40, which require monitoring of the day-to-day activities of the designated
             entity. Regulations at 24 CFR 85.20(b)(3) provide that effective control and
             accountability must be maintained for all grant and subgrant cash, real and
             personal property, and other assets. Grantees and subgrantees must adequately
             safeguard all such property and ensure that it is used solely for authorized
             purposes. The lack of adequate management controls over subrecipient
             monitoring and segregation of duties increased the risk that program funds may
             have been disbursed for ineligible or unsupported costs or that assets may have
             been subject to unnecessary risk and not properly safeguarded.

Conclusion

             The City had not established and implemented the necessary controls to ensure
             that its administration of the CDBG-R program was always effective and
             efficient. This was due to significant staff reductions over the past several years;
             which, along with the continued use of subrecipients to carry out most of the
             administration of various programs and activities, have resulted in decreased
             emphasis on monitoring CDBG-R activities for compliance with applicable rules
             and regulations. Moreover, some City officials did not appear to have an adequate
             knowledge of certain CDBG-R requirements including; an understanding of the
             "Buy American" requirements; and, the reporting requirements relating to CDBG-
             R job creations. City officials did not ensure that contracting and procurement
             regulations were followed; activities met a national objective of the program; job
             creation was adequately tracked and documented; buy American provisions of the
             Recovery Act were adequately monitored; and costs were necessary, reasonable,
             and adequately supported. Therefore, City officials failed to fully comply with
             applicable rules and regulations, including the Recovery Act, and other HUD
             requirements. Thus, ineligible costs of $5,291 and unsupported costs of $740,682

                                              15
          were expended for activities funded through the City’s CDBG-R program. The
          unsupported costs included $300,921 charged to the Kings Way building
          rehabilitation activity; $16,950 charged to the 15-17 Clinton Street demolition and
          site restoration project; $205,786 charged to the 34 Morton Avenue rehabilitation
          activity; and $217,025 charged to the Neighborhood Strategy Areas streets,
          sidewalks, and ramps activity.

Recommendations

          We recommend that the Director of HUD’s Buffalo Office of Community
          Planning and Development instruct City officials to

          1A.     Repay from non-Federal funds the ineligible costs of $5,291. The
                  ineligible costs include a double payment of $3,554 for electrical work
                  related to the 34 Morton Avenue rehabilitation activity, a payment of
                  $1,033 for a former City employee’s unused vacation time that was
                  accrued before the award of the CDBG-R grant and charged to the Albany
                  Community Development Agency’s rehabilitation administration activity,
                  and $704 charged to the Agency’s rehabilitation administration activity.

          1B.     Submit documentation to justify the unsupported costs of $740,682 so that
                  HUD can make an eligibility determination. For any costs determined to
                  be ineligible, HUD should require the City to reimburse the CDBG
                  program from non-Federal funds.

          1C.     Establish and implement controls to ensure that CDBG-R activities are
                  administered efficiently and effectively, funds have been used only for
                  eligible activities, costs incurred are necessary and reasonable, national
                  objectives have been attained, and performance goals are being achieved.

          1D.     Establish and implement controls to ensure that grant- and subgrant-
                  supported activities are adequately monitored and administered to ensure
                  compliance with program regulations.




                                           16
                         SCOPE AND METHODOLOGY

We performed our onsite work at the Albany Community Development Agency between March
and July 2012. The audit scope covered the period January 2009 through June 2012 and was
extended as necessary.

To accomplish our audit objectives, we

      Reviewed applicable HUD regulations, the Code of Federal Regulations, and other
       requirements and directives that govern the CDBG and CDBG-R programs.

      Reviewed the City’s applicable policies and procedures used to administer CDBG-R
       activities.

      Reviewed grant agreements and agreements between the City and its subrecipients,
       including verifying whether national objectives were met.

      Interviewed City and subrecipient officials responsible for administration and monitoring
       of the City’s CDBG-R program.

      Obtained and reviewed program and financial documentation from the City and its
       subrecipients pertaining to the CDBG-R activities audited.

      Reviewed HUD’s monitoring reports and files for the City’s community planning and
       development programs, including verifying any reported corrective actions.

      Reviewed independent public accountant audits and financial reporting.

      Reviewed all costs charged to the CDBG-R program activities tested during the audit,
       along with the applicable supporting documentation provided.

      Reviewed information systems data from HUD’s Integrated Disbursement and
       Information System for background and informational purposes. We performed a
       minimum level of testing and found the computer-processed data to be adequate for our
       purposes.

      Conducted physical inspections of selected work items charged to the CDBG-R activities
       reviewed.

The City was awarded a CDBG-R grant of $996,140 on August 14, 2009. All samples were
selected in a nonstatistical manner. Specifically, we reviewed five of the six CDBG-R activities
established by the City. As of July 10, 2012, expenditures for the five activities reviewed totaled
$788,612, or about 79 percent of the total grant.


                                                17
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               18
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

                     Safeguarding of resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to the effectiveness or efficiency of operations, (2) misstatements in


                                                 19
             financial or performance information, or (3) violations of laws and regulations on a
             timely basis.

Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                City officials did not have adequate controls over the efficiency and
                 effectiveness of program operations when they did not establish adequate
                 administrative controls to ensure that costs associated with rehabilitation,
                 street improvement, and administrative activities were adequately supported
                 (see finding).

                City officials did not have adequate controls over compliance with laws and
                 regulations when they did not always comply with HUD regulations while
                 disbursing program funds (see finding).

                City officials did not have an adequate system to ensure that resources were
                 properly safeguarded when they did not adequately segregate duties or
                 maintain adequate supporting documentation for costs charged to
                 rehabilitation and street improvement activities (see finding).




                                              20
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation                            Unsupported
                                          Ineligible 1/
                      number                                    2/
                        1A                  $5,291
                        1B                                    $740,682


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6




Comment 7




                         25
Ref to OIG Evaluation   Auditee Comments




Comment 8




                         26
Ref to OIG Evaluation   Auditee Comments




Comment 8




                         27
                          OIG Evaluation of Auditee Comments

Comment 1   The City officials indicate that the primary contract was competitively bid and
            that they will provide documentation supporting the questioned costs associated
            with this project. These costs were not questioned due to the lack of competitive
            bidding but due to the lack of an independent cost and price analyses. An
            architect’s letter attesting to the bid review and approval of the initial contractor’s
            low bid does not satisfy the requirements of regulations at 24 CFR 85.36(f)(1),
            which require that grantees and subgrantees perform a cost or price analysis in
            connection with every procurement action, including contract modifications. City
            officials should provide the documentation supporting these costs to HUD as part
            of the audit resolution process.

Comment 2   City officials indicate that procurement regulations were followed for this project
            and that there is documentation from the property owner explaining the reasons
            for choosing the next lowest bidder. City officials also state that the additional
            costs were under $5,000 and that under the City of Albany’s procurement policy
            could be paid at the discretion of the department head. However, the City’s
            procurement policy in place at the time of the audit states that when soliciting
            quotes for public works projects/contracts, for transactions between $1,001
            through $9,999 written quotes from at least three separate vendors (if available)
            will be solicited. Also, the additional $4,950 of costs incurred for tree removal
            and removal of tree stumps and rocks are also considered unsupported because the
            city did not document that an independent cost and price analysis was performed,
            and because the additional work paid for was not included in the scope of services
            outlined in the construction and demolition agreement. Therefore, all the costs
            still remain questioned pending an eligibility determination by HUD.

Comment 3   City officials state that an MOU was entered with all parties involved in this
            project and that ACDA did not request that the AHA use a particular minority
            contractor as this was already planned out by the time CDBG-R funds were
            introduced. City officials indicate that as long as the prime contract was
            competitively procured the secondary contracts are not subject to competitive
            procurement. However, during the audit AHA officials had stated that the
            ACDA had requested that AHA utilize a specific Minority Owned Business for
            this ARRA funded project. Documents reviewed indicate that an earlier MOU
            was executed in which Omni Housing was listed as developer and AOW
            Construction as the general contractor. C.L Construction (Concrete Links) was
            listed as the subcontractor. Subsequently, the project was changed to a different
            address whereby Concrete Links would contract directly with Omni. According
            to the AHA, Omni was co-developer with AHA on South End development and
            Concrete Links was not initially a part of the South End effort. Under the ARRA
            funding, the City was required to ensure that costs were procured under the
            regulations at 24 CFR Part 85. The fact that AHA may have properly procured
            Omni Development services is not relevant to the procurement violations
            regarding the ARRA funding. HUD will have to review the documentation the

                                              28
            City officials indicated will be provided as a part of audit resolution to make an
            eligibility determination as to the questioned costs.

Comment 4   City officials state that construction on this building has been completed and a
            temporary certificate of occupancy has been issued. Also, the AHA expects that a
            final certificate of occupancy will be issued within the week. The City officials
            also state that all documents supporting eligible beneficiaries will be provided to
            the HUD Buffalo Office in order to support that ACDA did meet its National
            Objective for this project.

            However, at the exit conference on November 14, 2012, City officials
            acknowledged that a final certificate of occupancy has still not been issued even
            though the deadline for the American Recovery and Reinvestment Act of 2009
            (CDBG-R) was September 30, 2012. The national objective should have been
            achieved by the time the CDBG-R funds had been fully expended. Relying on
            other funding sources to complete an activity funded in part with CDBG-R
            resources, increases the risk that a national objective may not be attained. HUD
            will have to review documentation that the City officials indicated will be
            provided as part of the audit resolution process to make a determination as to the
            eligibility of the costs.

Comment 5   City officials indicate ACDA will work closely with HUD to correct the
            information in the reporting system so that goals are met and the many jobs
            created for the citizens of the Albany by CDBG-R funds are officially recorded.
            City officials indicated that documentation supporting the jobs created would be
            provided to HUD. The documents regarding the job creation were not properly
            documented and accounted for by the ACDA. Therefore, the ACDA should work
            with the HUD Buffalo Office during the audit resolution to resolve the issues
            related to documenting the jobs created.

Comment 6   City officials state that Albany Housing Authority has provided ACDA with
            documentation that all materials purchased with CDBG-R funds were
            manufactured and purchased in America. These documents are available for
            review and will be offered to the HUD Buffalo Office in order to support the
            questioned costs associated with this project. We agree that the City officials
            should provide the noted documentation to HUD for their consideration as part of
            the audit resolution process.

Comment 7   City officials state that the Department of General Services has provided ACDA
            with detailed costs related to the CDBG-R grant funds for Activity 3650 and that
            the documents are available for review and will be offered to HUD to support the
            questioned costs associated with this project. We agree that the City officials
            should provide the noted documentation to HUD for their consideration as part of
            the audit resolution process.




                                             29
Comment 8   City officials state that the fiscal department consists of two accountants who
            handle the day to day accounting tasks. As such, there is limited ability to
            segregate duties. The duties have been assigned to be segregated as much as
            possible within those constraints whereby the same person is not doing the draws
            and disbursements, and the same person receiving cash is not the same as the
            person recording deposits, etc. Moreover, the comments detail several processes
            followed relating to fiscal matters and note that the internal controls in fiscal are
            analyzed annually by the external auditors and ACDA’s audit reports regarding
            internal controls have been ‘clean’. It has been discussed with the auditors over
            time that with a small fiscal department, maximum separation of duties has been
            implemented. Also, during the past, HUD monitoring visits have from time to
            time consisted of in-depth reviews of the accounting controls with no negative
            comment. However, our audit report properly discloses weaknesses noted
            relating to internal controls including controls over segregation of duties.
            Therefore, as part of the audit resolution process, City officials should work with
            HUD to resolve all control deficiencies, including any improvements that may be
            available to better address segregation of duties issues.




                                             30
